OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
PAYROLL PAYMENTS TO
FOREIGN SERVICE NATIONALS,
THIRD-COUNTRY NATIONALS,
AND U.S. PERSONAL SERVICES
CONTRACTORS
AUDIT REPORT NO. E-267-11-001-P
NOVEMBER 22, 2010




BAGHDAD, IRAQ
Office of Inspector General


November 22, 2010

MEMORANDUM

TO:                  Acting USAID/Iraq Mission Director, Alex Deprez

FROM:                Office of Inspector General/Iraq, Director, Lloyd Miller /s/

SUBJECT:             Audit of USAID/Iraq’s Payroll Payments to Foreign Service Nationals,
                     Third-Country Nationals, and U.S. Personal Services Contractors
                     (Report No. E-267-11-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments and included your response, without attachments, in
Appendix II.

The report contains eight recommendations to help the mission improve its payroll
processing and to pay or collect amounts due to or from employees. On the basis of the
information provided by the mission in its response to the draft report, we consider that
management decisions and final actions have been taken on Recommendations 1, 2, 4,
5, 6, and 8.        In addition, management decisions have been reached on
Recommendations 3 and 7. Determinations of final action will be made by the Audit
Performance and Compliance Division on completion of the planned corrective actions
for Recommendations 3 and 7.

I want to thank you and your staff for the cooperation and courtesies extended to us
during this audit.




U.S. Agency for International Development
USAID/Iraq
Box 47, Unit 2047
APO, AE 09870-2047
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings ................................................................................................................. 3

          Severance and Retirement Payments for Foreign
          Service Nationals Were Not Accurately Computed............................................... 3

          Overtime Payments for Foreign Service Nationals
          Were Not Accurately Computed............................................................................ 4

          Other Matters ........................................................................................................ 5

Evaluation of Management Comments ......................................................................... 6

Appendix I—Scope and Methodology........................................................................... 8

Appendix II—Management Comments........................................................................ 12

Appendix III—Procedures for Processing Payroll and Allowances ......................... 15

Appendix IV—Payroll Payments and Audit Samples ................................................ 18
SUMMARY OF RESULTS
In calendar year 2009, USAID/Iraq paid about $8.2 million in payroll, benefits, and
allowances to its non-U.S. direct-hire employees. This amount included approximately:

   $6.5 million in payroll to 57 third-country nationals and 34 U.S personal services
    contractors.

   $564,000 in involuntary separate maintenance allowances to 53 of its third-country
    nationals and U.S. personal services contractors.

   $1 million in payroll to 43 Foreign Service Nationals (locally hired Iraqi staff).

   $100,000 in severance and retirement payments to nine Foreign Service Nationals
    who had either voluntarily or involuntarily terminated employment.

Third-country nationals who work in Iraq are entitled to the same benefits and
allowances as the U.S. personal services contractors, and both are paid under the
Federal Government’s General Service salary schedule.            Their benefits include
(1) danger pay, 1 (2) post differential, 2 (3) Sunday differential, 3 and (4) involuntary
separate maintenance allowances. 4 Local Iraqis employed by the U.S. Government are
compensated in compliance with the Local Compensation Plan prepared by the
Department of State.

We performed this audit in response to a USAID/Iraq request. The mission’s request
arose from concerns about the frequent rotation of staff and the resulting risk of
inaccurate salary payments. The objective of the audit was to determine whether
USAID/Iraq had properly calculated and disbursed payroll payments to its Foreign
Service Nationals, third-country nationals, and U.S. personal services contractors in
accordance with established regulations, policies, and procedures. To answer the audit
objective, we selected statistically projectable samples (from the 90 percent to the 100
percent confidence level) from the universes of payments, and we verified whether
individual payroll transactions had been properly computed. Appendix IV includes the
universe and sample of payments, number and dollar amount of errors for each sample,
and the range of projected errors for each payment category.

The audit found that payments to third-country nationals and U.S. personal services
contractors ($6.5 million of the total $8.2 million)—the largest payroll category—were


1
  Danger pay is an allowance that provides additional compensation for working in a foreign area
where terrorism or wartime conditions threaten physical harm or imminent danger to the
employee.
2
  Post differential is an additional compensation for service in foreign areas where conditions
differ substantially from those in the continental United States.
3
  Sunday differential is an additional compensation for the hours worked on Sundays in countries
where Sunday is a workday.
4
  Involuntary separate maintenance allowance is granted to an employee whenever the head of
agency determines that the employee is compelled to maintain any or all members of family
elsewhere than at the foreign post of assignment.


                                                                                              1
generally accurate. In addition, payments for involuntary separate maintenance
allowances ($564,000) were also generally accurate.

Regarding payroll ($1 million) and severance or retirement payments ($100,000) for
local Iraqi staff, the audit found more inaccurate payments and systemic errors. Issues
included:

   Severance and retirement payments for Foreign Service Nationals were not
    accurately computed (page 3).

   Overtime payments for Foreign Service Nationals were not accurately computed
    (page 4).

The audit also found other errors that, although not systemic or material, require
management attention. These issues are included as “Other Matters” (page 5).

The report recommends that USAID/Iraq:

1. Clarify in writing the relevant sections of the Local Compensation Plan for the
   Bangkok payroll office to understand the types of allowances to be included in the
   computation of unused annual leave (page 3).

2. Establish written procedures to obtain the computation package of severance and
   retirement payments from the Bangkok payroll office for verification before
   processing payment (page 4).

3. Determine the amount of underpayments in unused leave and severance pay to
   Foreign Service National employees, and pay any amounts due (page 4).

4. Remind staff of the mission’s overtime policy and the procedures for recording
   overtime in time and attendance sheets (page 5).

5. Establish procedures to require the financial management office to review time
   sheets for overtime hours recorded and resolve discrepancies before entering the
   time into the electronic time and attendance system (page 5).

6. Clarify in writing the different overtime rates and the standard workweek in Iraq, as
   stated in the Local Compensation Plan, for the Bangkok payroll office (page 5).

7. Recompute underpayments to employees and pay any amounts due, and prepare
   bills of collection to recover overpayments from employees (page 5).

8. Reinforce to all staff the mission’s overtime approval processes (page 5).

The audit scope and methodology are described in Appendix I. The mission agreed with
report recommendations. Mission written comments on the draft report are included in
Appendix II; our evaluation of management comments is on page 6. USAID/Iraq’s
procedures for processing payroll and allowances are included in Appendix III. Detailed
findings follow.




                                                                                      2
AUDIT FINDINGS
Severance and Retirement Payments for Foreign
Service Nationals Were Not Accurately Computed
According to the July 5, 2009, Iraq Local Compensation Plan issued by U.S. Embassy
Baghdad, an employee is entitled to payment on separation for unused annual leave and
restored annual leave. The Local Compensation Plan further states that keeping a
current security clearance is a condition of employment with the mission; employees
who lose their security clearance are separated from the embassy’s employment without
cause and are given severance pay.

Eight of the universe of nine Foreign Service Nationals were underpaid a total of
$13,420 in unused annual leave. This amount included $7,061 in restored annual leave
and $6,359 in unused annual leave.

   Four of the nine employees had restored leave balances. However, only one of the
    four employees was compensated, and that employee was compensated for an
    incorrect amount. The underpayments totaled $7,061.

   Eight of the nine employees had unused annual leave totaling $27,258. However,
    they were compensated for only $20,899, resulting in underpayments amounting to
    $6,359.

In addition, three of the nine employees had lost their security clearance as a result of
failing their polygraph test and therefore were terminated without cause. However, only
one of the three employees received a severance payment; the other two employees
were not compensated for a total of $4,776. These underpayments occurred although
USAID/Iraq had explicitly listed severance pay as one of the benefits for the three
employees in the documents transmitted to the Bangkok payroll office for payments.

These underpayments occurred because the Bangkok payroll staff did not understand
the composition of allowances included in the computation of accrued annual leave in
compliance with the Local Compensation Plan. The Bangkok office included only the
base salary rate and work allowances in the computation, but the Local Compensation
Plan also included a retention differential. Moreover, these errors occurred because
policies and procedures were not in place to require the Bangkok payroll office, before
processing payments, to provide the computation package of severance and retirement
payments to USAID/Iraq for verification.

As a result, employees were not properly compensated for their unused leave and
severance pay on their departure. We recommend the following:

    Recommendation 1. We recommend that USAID/Iraq clarify in writing the
    relevant sections of the Local Compensation Plan for the Bangkok payroll office
    to understand the types of allowances to be included in the computation of
    unused annual leave.




                                                                                       3
    Recommendation 2.       We recommend that USAID/Iraq establish written
    procedures to obtain the computation package of severance and retirement
    payments from the Bangkok payroll office for verification prior to payment
    processing.

    Recommendation 3. We recommend that USAID/Iraq determine the amount of
    underpayments in unused leave and severance pay to Foreign Service National
    employees, and pay the individuals any amounts due.

Overtime Payments for Foreign Service
Nationals Were Not Accurately Computed
According to USAID/Iraq’s Mission Order 09-08-01 for overtime and compensatory time-
off policy, August 16, 2009, overtime or compensatory time may be accrued, if approved,
for hours actually worked in excess of 8 hours in a weekday and 40 hours in a week. For
example, if an employee took 32 hours of paid leave in a week, and then worked 8 hours
in the same week, the employee would be paid at a regular rate for those 8 hours and
not at an overtime rate. In addition, according to the Local Compensation Plan, different
overtime rates are used in computing overtime payments depending on the day of the
week when overtime is earned:

   150 percent of the hourly rate applies for each hour of overtime worked on a
    workweek day (Sunday through Thursday), or on a Saturday that is not a local
    holiday.

   200 percent of the hourly rate applies for each hour of overtime worked on a
    workweek day or on a Saturday that is a local holiday.

   200 percent of the hourly rate applies for each hour of overtime worked on a Friday.

Of the 48 sampled payroll transactions, 12 (25 percent) were not properly computed.
Seven of the inaccurately computed transactions resulted from the following systemic
errors:

   Supervisors approved overtime during a week when the actual hours worked were
    fewer than 40 hours because of a holiday or because the employee was in a leave
    status.

   Payroll officials did not apply the correct overtime rate. For example, an employee
    worked 8 hours of overtime on a Friday and 8 hours on a Saturday that was not a
    holiday. Officials applied the 200 percent overtime rate to the full 16 hours worked,
    instead of applying the 150 percent rate to the 8 hours worked on Saturday.

These overtime errors occurred in part because the employees did not record their
overtime hours accurately in their time and attendance sheets, and their supervisors
approved the inaccurate time sheets. In addition, the payroll officials at USAID/Iraq
entered the time and attendance records as prepared by the employees. Moreover, the
payroll officials in Bangkok did not apply the overtime rates specified in the Local
Compensation Plan in computing employees’ overtime payments.



                                                                                           4
These errors resulted in overall differences of $1,264, of which $708 was due to
systemic errors. We recommend the following:

    Recommendation 4. We recommend that USAID/Iraq remind staff of its overtime
    policy and the procedures for recording overtime in time and attendance sheets.

    Recommendation 5. We recommend that USAID/Iraq establish procedures to
    require the financial management office to review time sheets for overtime hours
    recorded and resolve discrepancies before entering the time into the electronic
    time and attendance system.

    Recommendation 6. We recommend that USAID/Iraq clarify in writing the
    different overtime rates and the standard workweek in Iraq, as stated in the Local
    Compensation Plan, for the Bangkok payroll office.

Other Matters
The audit identified other errors that, although not found to be systemic or material,
require management attention.

In the payment category for involuntary separate maintenance allowance, payroll
officials made four computation errors with an absolute dollar value of $1,974—one
overpayment of $190 and three underpayments totaling $1,784.

In all payroll categories reviewed, the audit disclosed six instances in which the office
directors approved overtime in excess of limits established by the mission without
obtaining the required approval of the deputy mission director or his designee.

We also identified eight errors totaling $2,208 in processing the payroll for third-country
nationals and U.S. personal services contractors. Two of the eight errors were
subsequently corrected and require no further actions; four resulted from overtime
approvals discussed in the preceding paragraph. The two remaining errors requiring
management attention are:

   A third-country national employee was underpaid $1,496 because payroll officials
    incorrectly computed post differential.

   In one instance, a U.S. personal services contractor was paid for 80 hours of Sunday
    differential by the paying office rather than the 8 hours reported by the mission,
    resulting in an overpayment of $670.

We recommend the following:

    Recommendation 7. We recommend that USAID/Iraq recompute the amounts
    of underpayments made to employees and any amounts due, and prepare bills of
    collection to recover overpayments due from employees.

    Recommendation 8. We recommend that USAID/Iraq reinforce to all staff the
    mission’s overtime approval processes.




                                                                                         5
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, the mission agreed with all of the recommendations
and described actions taken to address the recommendations. We reviewed the
mission’s response and supporting documents, and determined that final action has
been taken on Recommendations 1, 2, 4, 5, 6, and 8. Management decisions have
been reached on Recommendations 3 and 7.                 The status of each of the
recommendations is discussed below.

Regarding Recommendation 1, the mission sought clarification from the embassy for the
Local Compensation Plan. The Local Compensation Plan has been updated, effective
October 10, 2010, and the section related to allowances for payment of unused annual
leave was updated with the necessary explanation. Accordingly, we determined that
final action has been taken on this recommendation.

Regarding Recommendation 2, the mission has established written procedures requiring
the financial management office to (1) obtain from the Bangkok payroll office the
computation of severance and retirement payments and (2) review the computation for
accuracy before processing payments for separated employees. We consider that final
action has been taken on this recommendation.

Regarding Recommendation 3, the mission’s payroll specialist is coordinating with the
mission human resources office to obtain the personnel actions to determine the amount
of underpayments in unused leave and severance pay to separated Foreign Service
National employees. Accordingly, a management decision has been reached on
Recommendation 3. The estimated date for completion is December 31, 2010.

Regarding Recommendation 4, the mission’s payroll specialist provides a biweekly
e-mail reminder to the mission’s Foreign Service National staff of the overtime policy and
approval processes. The e-mail also references the mission order on overtime and
provides instructions for proper recording of overtime in time and attendance sheets.
We determined that final action has been taken on this recommendation.

Regarding Recommendation 5, the mission has payroll desk procedures that address
the review of time and attendance. The relevant procedure requires the payroll
specialist to review time and attendance and make sure that the overtime and leave
forms are signed by the authorized supervisors. The payroll specialist questions any
discrepancies, which are corrected before the specialist records information in the
electronic time and attendance system. We consider that final action has been taken on
this recommendation.

Regarding Recommendation 6, the mission discussed the issue of different overtime
rates and the standard workweek in Iraq with the embassy’s human resources officials.
The embassy’s human resources office has addressed the problem with the Bangkok
payroll office, and the necessary corrections were made in the payroll system at the




                                                                                        6
beginning of calendar year 2010. We consider that final action has been taken on this
recommendation.

Regarding Recommendation 7, the mission recomputed the amounts of underpaid
involuntary separate maintenance allowance and post differential. The mission is in the
process of making payments to employees for underpayments and has issued a bill of
collection to a former employee to recover an overpayment. We consider that a
management decision has been made on this recommendation. The mission expects to
complete final action by December 31, 2010.

Regarding Recommendation 8, the mission sends staff a biweekly e-mail reminder of the
mission’s overtime policies and approval processes. The e-mail reminder includes as an
attachment the mission order on overtime policy. We consider that final action has been
taken on this recommendation.

Determinations of final action for Recommendations 3 and 7 will be made by the Audit
Performance and Compliance Division on completion of the planned corrective actions.
The mission’s written comments on the draft report are included in their entirety, without
attachments, in Appendix II.




                                                                                        7
                                                                               Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective. The audit was designed to answer the following audit objective:

    Did USAID/Iraq properly calculate and disburse payroll payments to its Foreign
    Service Nationals, third-country nationals, and U.S. personal services contractors
    in accordance with established regulations, policies, and procedures?

We conducted fieldwork at USAID/Iraq’s financial management office and human
resources office. In calendar year 2009, USAID/Iraq paid about $8.2 million to its
134 non-U.S. direct-hire workforce in payroll, benefits, and allowances. USAID/Iraq’s
non-U.S. direct-hire workforce was composed of 57 third-country nationals, 38 Foreign
Service Nationals (locally hired Iraqis), and 34 U.S. personal services contractors. The
$8.2 million included:

   $6,554,429 in payroll to 91 third-country nationals and U.S personal services
    contractors

   $564,159 in involuntary separate maintenance allowances to 53 third-country
    nationals and U.S. personal services contractors

   $973,678 in payroll to 43 Foreign Service Nationals

   $100,594 in severance and retirement payments to nine Foreign Service Nationals

To answer the audit objective, we statistically selected and tested 185 transactions,
totaling $348,648. This amount included $100,594 in severance and retirement
payments. On the basis of the sampling methodology we used, we can project the
results of our sample to the universe of each payment category.

In conducting our audit, we obtained and verified source documents provided by the
mission. We reviewed pertinent criteria and documents related to computation of payroll
and allowances for third-country nationals, U.S personal services contractors, and
Foreign Service Nationals. Those documents included the (1) Local Compensation
Plan, (2) U.S. Department of State Foreign Affairs Handbook FAH-1 H-3412.1,
(3) mission overtime policy, and (4) Acquisition and Assistance Policy Directive for
revision of contracts and contract procedures for personal services contracts with third-
country nationals to work in Iraq and Afghanistan (AAPD 03-11). We also identified and
assessed the internal controls related to each category of payments.

Because no prior audits of payroll had been conducted, no prior audit recommendations



                                                                                         8
                                                                                Appendix I


required follow-up. We conducted our fieldwork between January 13 and May 24, 2010,
at USAID/Iraq. We also collected and confirmed information with wage specialists at the
Department of State in Washington, D.C., and at the U.S. Embassy in Baghdad, Iraq.
We collected and confirmed information from (1) the U.S. disbursing office in Bangkok,
Thailand, for payments to Foreign Service Nationals and (2) the USAID/Jordan financial
management office for payments to U.S. personal services contractors. We did not
collect or confirm information from the USAID/Egypt financial management office for
(1) payments to third-country nationals or (2) payments of involuntary separate
maintenance allowances, because all of these payments are computed at USAID/Iraq.

Methodology
To answer the audit objective, we divided the universe of payments into four different
subuniverses: (1) payments for severance and retirement, (2) payroll for Foreign Service
Nationals, (3) payroll for third-country nationals and U.S. personal services contractors,
and (4) payments for involuntary separate maintenance allowances. We statistically
selected the following universes:

   For payments for severance and retirement, we selected 100 percent of severance
    and retirement payments, totaling $100,594, to nine Foreign Service Nationals.

   For payroll for Foreign Service Nationals, we selected 48 transactions ($104,343)
    from the universe of 735 transactions ($973,678) on the basis of (1) 90 percent
    confidence level, (2) less than 5 percent error rate, and (3) 4 percent precision.

   For payroll for third-country nationals and U.S. personal services contractors, we
    selected 81 transactions ($85,550) from the universe of 6,697 transactions
    ($6.5 million) on the basis of (1) 95 percent confidence level, (2) less than 5 percent
    error rate, and (3) 4 percent precision.

   For payments for involuntary separate maintenance allowances, we selected
    47 transactions ($58,161) from the universe of 444 transactions ($564,159) on
    the basis of (1) 90 percent confidence level, (2) less than 5 percent error rate, and
    (3) 4 percent precision.

Regarding the materiality of the findings, we relied on our professional judgment to
combine significance within the sample and universe as well as to determine whether
findings were systemic or isolated. We used the following methodology in answering the
audit objective for each subuniverse.

Severance and Retirement Payments. We obtained supporting documents including
employees’ final time sheets, final statements of earnings and leave, and personnel
action forms. We designed a test plan using the information from interviews with
USAID/Iraq officials and our review of the Local Compensation Plan. We independently
computed each employee’s severance and retirement pay and identified payments that
were different from those computed by the Bangkok office. We discussed differences
with USAID/Iraq officials. We also clarified issues with officials at U.S. Embassy
Baghdad and at the Department of State in Washington, D.C., on eligibility for severance
and retirement payments.




                                                                                         9
                                                                                Appendix I


Foreign Service National Payroll. We extracted a list of 43 Foreign Service National
employees from the universe of USAID/Iraq employees. We requested from the
financial management office the payroll transactions posted in USAID’s accounting
system. Those transactions were posted for all employees monthly in a lump sum. We
also obtained the employees’ statements of earnings and leave and, with assistance
from the information technology section at USAID/Iraq, we converted that information
into an Excel spreadsheet for statistical selection purpose. We reconciled the amount of
the transactions with the total amounts of employees’ statements of earnings and leave,
and we found no exceptions.

The universe of payroll transactions in calendar year 2009 for the 43 Foreign Service
Nationals was 735 ($973,678 total). We provided this data to the Office of Inspector
General statistician, who selected a sample of 48 transactions ($104,343) on the basis
of a 90 percent confidence level. We presented the selected transactions to
USAID/Iraq’s financial management office and obtained time sheets with supporting
documentation for leave or overtime as appropriate. We designed a test plan using the
information from interviews with USAID/Iraq officials and our review of the Local
Compensation Plan. We computed selected employees’ payroll using their time sheets
and verified that the time sheets had been signed by the employees and had supervisory
approval. We determined whether overtime requests had been properly approved. We
compared our computation with the employees’ statements of earnings and leave and
identified any differences. We shared differences with USAID/Iraq officials and, as
necessary, recomputed exceptions with USAID/Iraq officials.

Third-Country Nationals and U.S. Personal Services Contractors. We obtained the
universe of payroll transactions for 91 third-country nationals and U.S. personal services
contractors with the assistance of financial management officials. This resulted in 6,697
transactions ($6.5 million). These transactions represented (1) base pay, (2) danger
pay, (3) post differential, (4) Sunday differential, and (5) overtime, and they were posted
in USAID/Iraq’s accounting system under different individual codes. Generally, these
five transactions represented payroll for each pay period per individual. We sorted the
transaction universe according to the five different payment types. We then presented
our universe to the Office of Inspector General statistician and asked for a statistical
sample, the result of which could be projected to the population. The statistician
selected a sample of 81 transactions ($85,550), which included items from each
category on the basis of a 95 percent confidence level.

We designed a test plan using the information from interviews with USAID/Iraq officials
and documents. We computed each selected transaction using the supporting time
sheets and approved overtime, as appropriate, and compared the results with the
amounts in the accounting system. We identified and discussed the differences with
USAID/Iraq officials. We also compared the grade level of the individuals in the sample
with their personal service contracts, and we identified exceptions.

Involuntary Separate Maintenance Allowances. We obtained the universe of 444
involuntary separate maintenance allowances transactions ($564,159) paid to 53
third-country nationals and U.S. personal services contractors in calendar year 2009.
We presented the universe to the Office of Inspector General statistician and asked for a
statistically selected sample of transactions, the result of which could be projected to the
population. The statistician selected a sample of 47 transactions ($58,161) on the basis
of a 90 percent confidence level. We presented the sample of transactions to


                                                                                         10
                                                                              Appendix I


USAID/Iraq financial management officials and obtained supporting documents that
included (1) marriage certificate, (2) birth certificate for children, (3) other official
documents for dependents other than children, and (4) forms signed and authorized by
the mission officials necessary to initiate the payment process. We designed a test plan
that included (1) employee name, (2) number of dependents, (3) amount of annual
involuntary separate maintenance allowance according to the policy, (4) daily rate, and
(5) period covered. We then computed payments independently and examined the
supporting documents to determine whether they were sufficient and properly
authorized. We identified exceptions and discussed them with USAID/Iraq financial
management officials.




                                                                                      11
                                                                            Appendix II



MANAGEMENT COMMENTS


MEMORANDUM


Date:         November 14, 2010

To:           Lloyd Miller, Office of the Inspector General/Iraq

From:         Robert E. Wuertz, Acting Mission Director /s/

Subject:      Management Comments to Draft Audit Report E-267-11-00X-P


Thank you for affording the USAID/Iraq Mission an opportunity to respond to the draft
audit of USAID/Iraq’s Payroll payments to Foreign Service Nationals, Third Country
Nationals and U.S. Personal Services Contractors. The Mission concurs with the audit
findings and recommendations and the Mission’s comments on the overall report can be
found below. Specifically we have responded to the eight recommendations outlined in
the draft OIG audit report, addressing actions taken or actions which are soon to be
implemented.

Background
The Office of the Inspector General (OIG) draft audit report on the USAID/Iraq’s Payroll
payments to Foreign Service Nationals, Third Country Nationals and U.S. Personal
Services Contractors was provided to the Mission on October 13, 2010. USAID/Iraq is
responsible to process payroll for a non-U.S. direct-hire workforce composed of 57 Third
Country National’s, 34 U.S. Personal Service Contractors (paid under OPM guidelines),
38 Foreign Service National’s (locally hired Iraqis paid using the Local Compensation
Plan), using different reporting tools and systems.

Each of the findings and recommendations has been examined to determine 1) whether
the Mission is in agreement and 2) what actions would be undertaken in response to the
audit. The Mission is in agreement with the audit findings and recommendations of the
audit and has taken the actions described below in response to the audit. The Mission
recognizes the value of this audit as a management tool.

After receipt of the audit report the USAID/Iraq’s Financial Management Office (FMO)
met with the Executive Office and Human Resources Office to bring to their attention the
issues identified in the report as they were significant enough to warrant immediate
action by the Mission.




                                                                                     12
                                                                            Appendix II




Below are the management decisions regarding the proposed audit recommendations:

Recommendation 1. We recommend that USAID/Iraq clarify in writing the relevant
sections of the Local Compensation Plan for the Bangkok payroll office to understand
the type of allowance to be included in the computation of unused annual leave.

Management Decision:
Local Compensation Plan has been updated effective October 10, 2010. The section
related to allowances to be computed for the final payment of unused annual leave is
updated with the necessary explanation (Attachment I).

Recommendation 2. We recommend that USAID/Iraq establish written procedures to
obtain the computation package of severance and retirement payments from the
Bangkok payroll office for verification prior to payment processing

Management Decision:
USAID/Iraq FMO has established procedures with GFS/Bangkok Payroll office and
obtained the computation package of final payment to FSN staff. Payroll Specialist
reviews the computation worksheet and coordinates with Bangkok Payroll office
miscalculations if any.

Recommendation 3. We recommend that USAID/Iraq determine the amount of
underpayments in unused leave and severance pay to Foreign Service National
employees and pay the individuals any amount due.

Management Decision:
Unused Annual Leave and Severance Pay – Payroll Specialist is coordinating with the
Mission HR office the payment request to Bangkok Payroll Office via JF-62. Action to be
completed by December 31, 2010 (Attachment I & II).

Recommendation 4. We recommend that USAID/Iraq remind staff of its overtime policy,
and the procedures for recording overtime in time and attendance sheets.

Management Decision:
Payroll Specialist provides and reminds the overtime policy and approval processes on
bi-weekly basis via e-mail. This email advises employees to ensure that all overtime and
leave forms are approved and appropriately signed. The Mission Order on the Mission
Overtime Policy is available for all staff (Attachment III).

Recommendation 5. We recommend that USAID/Iraq establish procedures to require
financial management office to review timesheets for overtime hours recorded and
resolve discrepancies before entering the time into the electronic time and attendance
system.




                                                                                     13
                                                                             Appendix II



Management Decision:
FMO Payroll desk procedures are in place. Payroll Specialist reviews timesheets for
overtime hours; correct any discrepancies or requests clarification on the submitted
supporting documents before Time & Attendances recorded into the WinT&A for FSN
staff.

Recommendation 6. We recommend that USAID/Iraq clarify in writing the different
overtime rates and the standard workweek in Iraq, as stated in the Local Compensation
Plan, for Bangkok payroll office.

Management Decision:
The issue of different overtime rates and standard workweek in Iraq was discussed with
the Embassy HR. State Department FSN staff had similar problem for overtime rates for
the work performed over the weekend. The Embassy HR office had addressed this
problem to Bangkok Payroll office and the necessary corrections were made in the
payroll system at the beginning of CY 2010.

Recommendation 7. We recommend that USAID/Iraq re-compute the amounts of
underpayments made to employees and any amounts due, and prepare bills of
collection to recover overpayments due from employee

Management Decision:
FMO re-computed the amounts of underpaid ISMA and post differential. Payment is in
process and will be completed by November 30, 2010 (Attachment IV).

FMO issued Bill for Collection 267-BD-11-001 (Attachment V) for Sunday Differential in
the amount of $670.00. Bill for Collection was sent to former employee on 10/21/2010
Payroll Specialist will follow up in case of any problem/delays with refund. Action to be
completed by December 31, 2010

Recommendation 8. We recommend that USAID/Iraq reinforce to all staff the mission’s
overtime policies and approval processes.

Management Decision:
Payroll Specialist provides and reminds the overtime policy and approval processes on
bi-weekly basis via e-mail (Attachment II). This email advises employees to ensure that
all overtime and leave forms are approved and appropriately signed. The Mission Order
on the Mission Overtime Policy is available for all staff.

Based on the above, we believe that the actions taken by USAID/Iraq have adequately
addressed the eight audit recommendations and the auditor’s concerns. Therefore, we
believe that final action has been reached on the recommendations.

Attachments:
Attachment I: Copy of the updated section on Final Payment of Annual Leave
Attachment II: Emails to TCNPSCS and FSNPSCS and Mission Order on Overtime
                Policy
Attachment III: Email from Payroll Specialist on ISMA payments
Attachment IV: Copy of Bill for Collection 267-11-BD-001 for overpayment of Sunday
                Differential


                                                                                      14
                                                                             Appendix III



Procedures for Processing
Payroll and Allowances
Payroll procedures for each payment category are described in the following
paragraphs.

Foreign Service Nationals
   USAID/Iraq human resources office prepares personnel actions for new employees,
    including grade, salary level, and new employee number.

   The human resources office sends these personnel actions to the USAID/Iraq
    financial management office and the Bangkok payroll office.

   The financial management office enters the new employee’s name and number into
    the Department of State’s time and attendance payroll application (WinTA), and
    creates a new employee record for entering the employee’s time and attendance
    records.

   The financial management office enters Foreign Service Nationals’ time sheets into
    WinTA, generates the biweekly report, and traces the biweekly report to the
    employees’ time sheets to ensure accuracy.

   Upon receipt of the WinTA data, the Bangkok payroll office processes the payroll and
    generates statements of earnings and leave for each employee.

   The Bangkok payroll office issues a combined payroll check and forwards the check
    to USAID/Iraq.

   The financial management office downloads statements of earnings and leave from
    the Bangkok Web site to verify the amount of salary disbursements.

Severance and Retirement Payments
The payment process for severance and retirement payments to Foreign Service
Nationals is similar to the payroll process for Foreign Service Nationals. The additional
step is for the Bangkok payroll office to compute the severance or retirement payment
using the information from USAID/Iraq and the Local Compensation Plan. However, as
noted in our report, the payroll office does not consistently provide the payment package
for each employee to USAID/Iraq for verification before disbursement.

Third-Country Nationals
The payroll process for third-country nationals is distinct from that for Foreign Service
Nationals. The key controls are the following:




                                                                                      15
                                                                          Appendix III


   The USAID/Iraq human resources office prepares personnel actions for new
    employees including grade, salary level, and amount of leave accruals per pay
    period.

   The human resources office sends these personnel actions to the USAID/Iraq
    financial management office.

   The financial management office prepares payroll templates (such as salary,
    allowances, grade level, and amount of leave accruals) for each new employee on
    the basis of the employee’s contract.

   The financial management office periodically verifies leave information with
    employees.

   The financial management office prepares two worksheets—time and attendance
    and earnings and leave—using information from the time sheet submitted by the
    employee.

   USAID/Iraq reviews time sheets to ensure that they have been properly signed and
    their overtime and leave have been properly approved.

   The USAID/Iraq financial management office computes the payroll for the third-
    country nationals. The USAID/Egypt financial management office is used only for
    disbursement purposes.

U.S. Personal Services Contractors
The payroll process for U.S. personal services contractors is distinct from those for
Foreign Service Nationals and third-country nationals. The key controls are the
following:

   The USAID/Iraq human resources office prepares personnel actions for new
    employees, including grade, salary level, and amount of leave accruals per pay
    period.

   The human resources office sends these personnel actions to the USAID/Iraq
    financial management office.

   Employees submit time sheets and supporting documentation. USAID/Iraq reviews
    time sheets to ensure that they have been properly signed and their overtime and
    leave have been properly approved.

   The USAID/Iraq financial management office prepares a summary spreadsheet,
    which includes information such as employee name, grade, salary level, number of
    hours worked, annual leave, holiday, and overtime. This spreadsheet is reviewed by
    the chief accountant and cleared by the deputy controller.

   The financial management office scans this worksheet with supporting time sheets
    and sends it to USAID/Jordan for salary computation and processing.



                                                                                   16
                                                                         Appendix III


   USAID/Jordan computes payroll for U.S. personal services contractors in
    accordance with information provided by USAID/Iraq, prepares statements of
    earnings and leave, and sends them to USAID/Iraq.

Involuntary Separate Maintenance Allowance
For payments of involuntary separate maintenance allowance, the process is distinct
from the payroll process. The key controls are the following:

   Employees submit required forms with approvals noted.

   Employees must submit a new request every month and must inform the human
    resources office if their status has changed.

   The financial management office traces each request for the month to the original
    forms prepared by the employee.

   The financial management office prepares a summary monthly worksheet, which
    includes all eligible staff, and attaches the required forms. The worksheet is
    reviewed and approved by the chief accountant and deputy controller.

   The USAID/Iraq financial management office sends the information to USAID/Egypt
    for disbursement.




                                                                                  17
                                                                            Appendix IV

     USAID/Iraq Payroll Payments and Audit Samples—Calendar Year 2009



                                               Payment Type


  Sampling                                      Payroll for
                                                                Payments
 Information       Severance                       Third-
                                 Payroll for                        for
                    Payments                     Country
                                  Foreign                      Involuntary
                   for Foreign                 Nationals and                     Total
                                  Service                        Separate
                     Service                   U.S. Personal
                                 Nationals                     Maintenance
                    Nationals                    Services
                                                                Allowance
                                                Contractors
Total paid          $100,594     $973,678       $6,554,429      $564,159      $8,192,860
Number of
                       9             43             91             53             196
employees
Number of
                       9            735            6,697           444           7,885
payments
Payments in
                       9             48             81             47             185
sample
Confidence
                      100            90             95             90
level (%)
Number of
                       8             12              8              4             32
errors
Dollar amount
                    $18,196        $1,264         $2,208         $1,974         $23,642
of errors
Number of
                     8 of 8        7 of 12         4 of 8         0 of 4        19 of 32
systemic errors
Range of
                       8         96 to 272       509 to 978      20 to 56
projected errors




                                                                                    18
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel.: 202-712-1150
             Fax: 202-216-3047
            www.usaid.gov/oig
